<html>
<title> - PROPOSAL TO REDUCE CHILD DEATHS DUE TO MALTREATMENT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                    PROPOSAL TO REDUCE CHILD DEATHS 
                          DUE TO MALTREATMENT 

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 12, 2012

                               __________

                          Serial No. 112-HR16

                               __________

         Printed for the use of the Committee on Ways and Means

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

78-759 PDF                      WASHINGTON : 2013 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




                      COMMITTEE ON WAYS AND MEANS

                     DAVE CAMP, Michigan, Chairman

WALLY HERGER, California             SANDER M. LEVIN, Michigan
SAM JOHNSON, Texas                   CHARLES B. RANGEL, New York
KEVIN BRADY, Texas                   FORTNEY PETE STARK, California
PAUL RYAN, Wisconsin                 JIM MCDERMOTT, Washington
DEVIN NUNES, California              JOHN LEWIS, Georgia
PATRICK J. TIBERI, Ohio              RICHARD E. NEAL, Massachusetts
DAVID G. REICHERT, Washington        XAVIER BECERRA, California
CHARLES W. BOUSTANY, JR., Louisiana  LLOYD DOGGETT, Texas
PETER J. ROSKAM, Illinois            MIKE THOMPSON, California
JIM GERLACH, Pennsylvania            JOHN B. LARSON, Connecticut
TOM PRICE, Georgia                   EARL BLUMENAUER, Oregon
VERN BUCHANAN, Florida               RON KIND, Wisconsin
ADRIAN SMITH, Nebraska               BILL PASCRELL, JR., New Jersey
AARON SCHOCK, Illinois               SHELLEY BERKLEY, Nevada
LYNN JENKINS, Kansas                 JOSEPH CROWLEY, New York
ERIK PAULSEN, Minnesota
KENNY MARCHANT, Texas
RICK BERG, North Dakota
DIANE BLACK, Tennessee
TOM REED, New York

                   Jennifer Safavian, Staff Director

                   Janice Mays, Minority Chief Cousel

                                 ______

                    SUBCOMMITTEE ON HUMAN RESOURCES

                ERIK PAULSEN, Minnesota, Acting Chairman

RICK BERG, North Dakota              LLOYD DOGGETT, Texas
TOM REED, New York                   JIM MCDERMOTT, Washington
TOM PRICE, Georgia                   JOHN LEWIS, Georgia
DIANE BLACK, Tennessee               JOSEPH CROWLEY, New York
CHARLES W. BOUSTANY, JR., Louisiana



                            C O N T E N T S

                               __________
                                                                   Page

Advisory of December 12, 2012 announcing the hearing.............     2

                               WITNESSES

The Honorable Bill Frenzel
  Guest Scholar, Brookings Institution (former Member of 
    Congress; former
  Chairman, Pew Commission on Children in Foster Care)
    Testimony....................................................     9
Teresa Huizar
  Executive Director, National Children's Alliance (NCA)
    Testimony....................................................    16
Madeline McClure
  Executive Director, TexProtects (The Texas Association for the 
    Protection
  of Children)
    Testimony....................................................    23
David Sanders, Ph.D.
  Executive Vice President of Systems Improvement, Casey Family 
    Programs
    Testimony....................................................    34

                       SUBMISSIONS FOR THE RECORD

Alliance for Children and Families...............................    49
American Psychological Association...............................    52
Children's Advocacy Institute....................................    55
First Focus......................................................    59
George Lithco....................................................    63
Michael Durfee...................................................    69
Michigan Department of Human Services............................    78
National Association of Social Workers...........................    81
Stephanie Bingham Doss...........................................    89
Sylvia Randolph..................................................    92


          PROPOSAL TO REDUCE CHILD DEATHS DUE TO MALTREATMENT

                              ----------                              


                      WEDNESDAY, DECEMBER 12, 2012

                     U.S. House of Representatives,
                               Committee on Ways and Means,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:11 p.m., in 
Room 1100, Longworth House Office Building, the Honorable Erik 
Paulsen [Acting Chairman of the Subcommittee] presiding.
    [The advisory of the hearing follows:]

HEARING ADVISORY

              Acting Chairman Paulsen Announces Hearing on

          Proposal to Reduce Child Deaths Due to Maltreatment

Wednesday, December 05, 2012
By (202) 225-3625

    Congressman Erik Paulsen (R-MN), Acting Chairman of the 
Subcommittee on Human Resources of the Committee on Ways and Means, 
today announced that the Subcommittee will hold a hearing to discuss a 
bipartisan proposal to establish a commission tasked with developing 
recommendations for reducing child deaths due to maltreatment. The 
hearing will take place at 2:00 pm on Wednesday, December 12, 2012, in 
Room 1100 of the Longworth House Office Building.
      
    In view of the limited time available to hear from witnesses, oral 
testimony at this hearing will be from invited witnesses only. 
Witnesses will include experts on child abuse and neglect and child 
fatalities due to maltreatment. However, any individual or organization 
not scheduled for an oral appearance may submit a written statement for 
consideration by the Committee and for inclusion in the printed record 
of the hearing.
      

BACKGROUND:

      
    According to State reports, over 1,500 children in the U.S. died in 
FY 2010 due to maltreatment. However, research has shown that these 
reports substantially understate the number of children who die due to 
maltreatment each year. To gain a clearer understanding of this issue, 
Ways and Means Committee Chairman Dave Camp (R-MI) asked the Government 
Accountability Office (GAO) to review what is known about the 
circumstances of child deaths and near deaths due to maltreatment, 
State approaches to gathering and reporting this information, and what 
the Department of Health and Human Services (HHS) has done to support 
the collection and accurate reporting of this information. GAO 
testified about the findings of their review and released its report 
during an earlier Human Resources Subcommittee hearing held on Tuesday, 
July 12, 2011.
    Since the earlier hearing, Members have continued bipartisan 
discussions on ways to reduce fatalities due to maltreatment. 
Specifically, full Committee Chairman Dave Camp (R-MI) and Subcommittee 
Ranking Member Lloyd Doggett (D-TX) have developed a proposal, the 
Protect our Kids Act, to establish a commission that would examine the 
issue and recommend ways to improve current policy and practices. The 
purpose of this hearing is to review that proposal and solicit input 
from key stakeholders and other experts on how such a commission might 
best undertake this work. A draft of this proposal, on which witnesses 
will be asked to comment in their testimony, can be found at the 
following link: http://waysandmeans.house.gov/UploadedFiles/
Commission_Draft.pdf.
    In announcing the hearing, Acting Chairman Paulsen stated, ``The 
death of any child is a tragedy, but there is nothing more 
heartbreaking than when a child dies at the hand of someone who should 
have cared for them most. Our hearing last year highlighted this issue 
and what can be done to collect better information on the problem. Now 
we have a bipartisan proposal to investigate this issue further and 
produce real reforms. I look forward to hearing our witnesses' thoughts 
on this proposal so we can ensure that more kids are protected from 
abuse and neglect.''
      

FOCUS OF THE HEARING:

      
    The hearing will focus on the bipartisan proposal, the Protect our 
Kids Act. The draft legislation establishes a commission to examine the 
issue of child fatalities from abuse and neglect, review the 
effectiveness of current programs and policies, and recommend ways to 
reduce child fatalities due to maltreatment.

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``Hearings.'' Select the hearing for which you would like to submit, 
and click on the link entitled, ``Click here to provide a submission 
for the record.'' Once you have followed the online instructions, 
submit all requested information. Attach your submission as a Word 
document, in compliance with the formatting requirements listed below, 
by Wednesday, December 26, 2012. Finally, please note that due to the 
change in House mail policy, the U.S. Capitol Police will refuse 
sealed-package deliveries to all House Office Buildings. For questions, 
or if you encounter technical problems, please call (202) 225-1721 or 
(202) 225-3625.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word format and MUST NOT exceed a total of 10 pages, including 
attachments. Witnesses and submitters are advised that the Committee 
relies on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons, 
and/or organizations on whose behalf the witness appears. A 
supplemental sheet must accompany each submission listing the name, 
company, address, telephone, and fax numbers of each witness.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://www.waysandmeans.house.gov/.

                                 <F-dash>

    Mr. PAULSEN. Good afternoon. I call the subcommittee 
hearing to order.
    The purpose of today's hearing is to discuss a proposal 
designed to reduce the number of children who die from abuse 
and neglect.
    I would like to thank our colleague, Mr. Doggett, as well 
as Chairman Camp, for their work on this very important 
proposal that we will consider today. There are tragically too 
many examples, like Devin Drake, of why this is an important 
issue. Three-year old Devin Drake was brought to Mercy Hospital 
in Minneapolis, Minnesota, by his mother, Elizabeth Moorman, on 
August 30, 2011. She said that Devin had been completely normal 
until he collapsed at home just a few minutes earlier. After 
questioning by medical staff, and later police, her boyfriend, 
Anthony Urban, admitted to punching Devin the day before. He 
said the boy then fell off a stool and hit his head on the 
bathroom ceramic floor. Even though Devin had trouble standing 
up and was obviously seriously injured, neither his mother nor 
her boyfriend took time to bring him to the hospital. The next 
day, even after Devin's condition worsened, they still did not 
get help for him. Finally, it was that evening that Devin's mom 
took him to the hospital.
    Police reports revealed that this was not the first time 
that Devin had suffered abuse. Before his birth, Devin's mother 
was convicted on drug charges. After Devin was born, social 
workers contacted his mother because of alleged drug abuse. At 
the time of Devin's hospital visit, his mother had outstanding 
warrants for her arrest, which no doubt contributed to her 
reluctance to take her son to the hospital.
    Her boyfriend had two felony drug convictions. Neighbors 
said they noticed Devin recently had had a black eye. One 
neighbor said she had planned to go to authorities the very day 
that Devin was taken to the hospital.
    When Devin arrived at the hospital, medical staff realized 
his injuries were no accident. He was diagnosed with severe 
head trauma, punctured lungs, and a number of contusions. He 
was airlifted to Hennepin County Medical Center, where his 
injuries were found to be consistent with severe abuse.
    Four days later, 3-year old Devin Drake died. Nothing is 
more breathtaking, heartbreaking than when a child like Devin 
dies at the hands of someone who should have cared for him the 
most.
    And that is why we are here today, to review a proposal 
designed to reduce the number of these tragedies. Ultimately, 
the real solutions will come through the incredible work done 
by local child welfare agencies, education providers, police, 
healthcare providers and workers and many others.
    While it won't be the Federal Government that solves this 
problem, we have a role to play. As the legislation before us 
suggests, we can bring together experts to review which of 
today's practices work, and don't work, to highlight what 
additional steps hold the most promise and ultimately help 
local officials incorporate that knowledge into their best 
practices.
    In July 2011, we heard about the magnitude of the problem, 
including the fact that hundreds of child abuse deaths go 
unreported each year. Today we will review a bipartisan 
proposal to establish a commission to consider these issues and 
develop recommendations to ultimately reduce the number of 
those deaths.
    This legislation would have a very small cost, which we 
would make sure is fully paid for by other savings. We believe 
it can move forward quickly through the House and then, 
hopefully, through the Senate.
    Most importantly, we think it will help prevent future 
child abuse deaths. While that will come too late for Devin, we 
do owe it to the many vulnerable children who might be saved in 
the years ahead to make any progress that we can.
    I look forward today to all of the testimony from our 
panel's witnesses and advancing the bipartisan legislation 
offered by Chairman Camp and Representative Doggett.
    Without objection, each Member will have the opportunity to 
submit a written statement and have it included in the record 
at this point.
    Mr. Doggett, would you care to make an opening statement?
    Mr. DOGGETT. I would, Mr. Chairman, and thank you so much, 
Mr. Chairman, for the work that you and your staff have shown 
on this measure.
    I am pleased that, with your personal leadership and that 
of Chairman Dave Camp, we are moving forward in a bipartisan 
manner to pass legislation to reduce the number of children who 
are exposed each year to abuse and neglect.
    It is my hope that we can use today's hearing and the 
expert witnesses that we have together with us in the hearing 
to perfect this legislation before its bipartisan consideration 
here in the House.
    At the hearing that we had in July of 2011 in this 
subcommittee, I expressed hope that we would be able to work 
together, and I think these more recent developments suggest we 
are doing that.
    You know, as a grandfather myself of three little girls, 
who bring such tremendous joy to our family, it is just painful 
to even imagine a child being subjected to neglect and abuse, 
especially from a family member.
    Yet we recognize each year that there are thousands of 
children who face this cruel fate. As District Judge Darlene 
Byrne, a leader in establishing, really across the country, but 
beginning in Travis County in Texas, our child protection 
courts, has said, ``Childhood should be a time of innocence and 
freedom, but it is a sad fact that many children are vulnerable 
to injury and abuse. Our Nation's children need good leaders to 
stand up at a national level and find creative ways to protect 
them from harm. The creation of a national commission to end 
child fatalities is an important step in that direction.''
    We need thoughtful consideration of everything we can do to 
protect vulnerable children. And in some cases, we just need to 
share what is already working, what has been developed in some 
communities to try to avoid tragedy. And a lot of what we will 
hear today is that there are many areas of improvement in the 
fight against child abuse and neglect that we can, in fact, 
make.
    The draft legislation that we are reviewing today 
represents an improved version of the original H.R. 3653, that 
I introduced exactly 1 year from tomorrow, and that is pretty 
quick for Congress to act.
    It would establish a national commission to develop 
recommendations to reduce child fatalities stemming from abuse 
and neglect. In my home State of Texas, groups like 
TexProtects, Voices for Children San Antonio, CASA, children's 
shelters in Austin and San Antonio serve as a voice for the 
voiceless, protecting and advocating for children, as their 
counterparts do in other States around the country. Local 
leaders, like Texas State Senator Carlos Uresti, was a driving 
force behind getting our Texas Blue Ribbon Task Force to combat 
child abuse and neglect set up, and getting Bexar County's own 
task force to combat these problems.
    There are a number of similar organizations in Chairman 
Camp's home State of Michigan, and I am sure in Minnesota as 
well, like Michigan's Early Childhood Investment Corporation, 
Michigan's Council on Maternal and Child Health, and the 
Michigan office of Great Start. The important work that these 
folks are doing has been critical to improving the lives of at-
risk children. Yet despite these developments, fatalities 
stemming from child abuse and neglect remain at epidemic 
proportions in Texas and in San Antonio, in particular. Last 
year there were almost 6,000 confirmed cases in Bexar County, 
that is San Antonio, the highest number in Texas, higher than 
even Houston and Harris County, which has a population that is 
about twice as large.
    In the decade from 2000 to 2010, Texas had over 2,000 
reported deaths from child abuse and neglect. And last year, 
Texas had nearly 66,000 confirmed cases of child abuse and 
neglect, and over 200 deaths during that one year alone. So 
there is much we need to focus on in my home State and around 
the country.
    Mr. Chairman, in so many cases, we may never fully 
understand what causes this abuse and neglect, but we can 
understand ways to reduce it. And I think, by creating this 
national commission, we will be taking a step, an important 
step in the right direction. Thank you.
    Mr. PAULSEN. Thank you, Mr. Doggett.
    I want to remind our witnesses to limit their oral 
statements to 5 minutes. However, without objection, all of the 
written testimony will be made part of the permanent record.
    On a panel this afternoon, we will be hearing from Bill 
Frenzel, guest scholar at the Brookings Institution; Teresa 
Huizar, executive director, National Children's Alliance; 
Madeline McClure, executive director, TexProtects; and David 
Sanders, Ph.D., executive vice president of Systems 
Improvement, the Casey Family Programs.
    I would like to now introduce our very first witness, Mr. 
Frenzel. Bill Frenzel is a former Member of the United States 
House of Representatives, representing my district, actually, 
in Minnesota's Third Congressional District, where he had a 
very distinguished career for 20 years. He served as a member 
of this committee as well as a ranking member of the House 
Budget Committee and the House Administration Committee.
    Upon leaving the House, Mr. Frenzel continued his public 
service, serving as a special advisor to President Clinton on 
NAFTA, as well as chairman of the President's Advisory 
Commissions on Trade Policy and Negotiations from 2002 to 2011.
    Mr. Frenzel also served as the chairman of the Pew 
Commission on Children in Foster Care from 2003 to 2008.
    It is an honor to have him testify here before the 
committee today.
    Mr. Frenzel, please proceed with your testimony.

    STATEMENT OF THE HONORABLE BILL FRENZEL, GUEST SCHOLAR, 
 BROOKINGS INSTITUTION, FORMER MEMBER OF CONGRESS, AND FORMER 
      CHAIRMAN, PEW COMMISSION ON CHILDREN IN FOSTER CARE

    Mr. FRENZEL. Mr. Chairman, thank you.
    Chairman and Members of the Committee, it may be bad form, 
but I want to say, first of all, what a great privilege and 
pleasure it is for me to testify before a committee chaired by 
a Congressman From the Third District of Minnesota. My elation 
knows no bounds.
    Mr. Chairman, I want to testify on the structure of the 
committee and the remarks that I make are based on my own 
experience in a number of commissions and panels. And I hope 
that they will be helpful, and I realize that there are lots of 
other points of view that will be and can be made.
    First of all, the draft bill of Congressmen Doggett and 
Camp, provides for a Presidentially appointed commission. And 
that is a good idea if you are looking for prestige. However, 
Presidential commissions don't have a glorious history of 
success. My guess is that this particular commission is going 
to succeed no matter who appoints it, but I believe you are 
likely to come to a better outcome if you appoint it through 
the Congress.
    The trouble with Presidential appointments is that you 
aren't there to see that they get made. You may have trouble 
with what I call geographical distribution, which I think is 
important and I will talk about more later. And the President 
may want to reward other people, and his personnel department 
may have restrictions that make it difficult to put the kind of 
people you want on there.
    So I would say it would be a lot better to have the 
commission selected by Congress, and by your subcommittee and 
its Senate counterpart, I think they could work with the 
appointing authorities, all four of them in Congress, to get 
the right kind of commission.
    With respect to size, I think the draft bill has it about 
right. I would suggest a few more, but certainly no more than 
20. So I think you are okay there.
    The qualifications are something that I am not myself 
qualified to speak about, but it looks like you have the bases 
pretty well covered.
    I think, however, I am going to suggest that you might try 
some former Members of Congress in leadership jobs, and they 
might not qualify under the qualifications listed in the draft 
bill.
    I talked about regionality before. You need to get a 
spread. The States are all different. The regions are all 
different. You can't avoid California and New York, where 
certainly a lot of these problems exist, and you need a spread 
elsewhere. That is one of the reasons why I prefer a little 
larger commission than is outlined in the draft bill.
    With respect to congressional membership, it is up to you. 
I believe that Members have got a lot of things to do, and 
probably shouldn't be on the commission and might not be 
reliable attendees.
    As to commission leadership, I have always thought that 
having a former Congressman to enforce management and 
leadership and look for consensus is a really great idea. I had 
a wonderful experience on the Pew Commission on Children in 
Foster Care working with Bill Gray, who had formerly been 
chairman of the Budget Committee when I was the ranking member. 
And I think neither of us knew very much about children in 
foster care, but I think we kept the commission going and aimed 
in the right direction.
    I have a note here on consensus. It is, I believe, very 
important to have the members come to a fairly unanimous 
agreement. Separate or minority remarks blunt the thrust of 
these kinds of commissions. I think that proper leadership will 
get you there.
    My time is expiring, but let me just say, with respect to 
congressional approval, I hope that this committee would see 
that there is some kind of action immediately following the 
report, because then, local agencies, private organizations, 
State, and other agencies will pay a lot more attention to it 
if they believe that the Congress thinks it is a good report.
    Congress may not be able to pass a bill to say this, but I 
think the committee could indicate approval somewhere along the 
line.
    Mr. Chairman, I have other thoughts, and I will leave them 
for the question period. Thank you very much.
    Mr. PAULSEN. Thank you, Mr. Frenzel, very much.
    [The prepared statement of Mr. Frenzel follows:]

    [GRAPHIC(S) NOT AVAILABLE TIFF FORMAT]

    Mr. PAULSEN. Ms. Huizar, please proceed with your 
testimony, you are recognized.

   STATEMENT OF TERESA HUIZAR, EXECUTIVE DIRECTOR, NATIONAL 
                   CHILDREN'S ALLIANCE (NCA)

    Ms. HUIZAR. Thank you.
    Chairman Paulsen, Ranking Member Doggett, and Members of 
the Subcommittee, thank you for holding this important hearing 
on child abuse fatalities and the effort to establish a 
commission that would shed light on this issue, highlight 
evidence-supported interventions, and convene a national 
dialogue about the protection of the nation's most vulnerable 
children.
    I represent National Children's Alliance, which is the 
national association and accrediting body for the nation's 750 
Children's Advocacy Centers. CACs coordinate a 
multidisciplinary team approach to the investigation, 
prosecution, and treatment of child abuse. In the case of child 
abuse fatalities, our CACs are often used for the interviews 
conducted with other siblings and child witnesses of these 
tragedies. So we know far too well the tragedy of children 
killed by their caretakers and the toll this takes on 
communities, the remaining family members, and the 
professionals who must investigate these sad cases.
    Because we believe these deaths are preventable, NCA has 
joined with other members of the National Coalition to End 
Child Abuse Deaths to raise awareness of the problem.
    Over the past decade significant gains have been made in 
child abuse prevention and intervention generally. The overall 
rates of sexual and physical abuse have declined, but what has 
not declined and in fact has either remained flat or increased, 
is the rate of child abuse fatalities or near fatalities. The 
horrifying persistence of fatal child abuse, despite the 
implementation of effective prevention and intervention 
measures for most other forms of abuse, calls for a deeper 
examination of its causes and scope.
    Official child welfare records indicate that at least 1,500 
children are fatally abused annually. However, that number does 
not capture the scope of the problem, nor the scope of the 
suffering. Indeed, a recent GAO report indicates that the 
NCANDS data due to the voluntary nature of the data collection 
and the fact that in many States only one data source is used 
for the reporting, substantially undercounts fatal child abuse. 
And moreover, restrictive confidentiality laws and regulations 
make it difficult to thoroughly examine abuse fatalities when 
they occur so that we can learn how to prevent them and what 
risk factors are associated with them.
    What is sorely lacking in all of this is a comprehensive 
national strategy to combat the tragedy of child abuse 
fatalities. Rather than a piecemeal approach to preventing 
these deaths, children at risk of eminent harm need and require 
the government's protection. And as a public health problem, 
child abuse fatalities can be approached as any other and 
successfully combatted.
    Key to this national strategy is the establishment of a 
bipartisan commission empowered by Congress to thoroughly 
examine the problem, particularly as it relates to children 
within or previously known to the child welfare system. States 
vary widely in their child abuse fatality rates. Guidance 
provided through the work of a commission can ensure that a 
child's chance of surviving his or her childhood is not an 
accident of geography.
    By scrutinizing the effectiveness of Federal, State, and 
local data systems and identifying the most effective 
prevention and intervention practices, the commission can lift 
up successful examples for widespread dissemination.
    Reducing child abuse fatalities is a complex matter. It 
requires investigating and addressing many issues, including 
evidence-supported prevention and intervention efforts aimed at 
strengthening families and preventing maltreatment in the first 
place; workforce training; a risk-assessment practice within 
Child Protective Services; strengthening child death review 
teams; encouraging CAC's to expand their services; 
strengthening the medical examiner and coroner systems within 
the U.S. to ensure accurate designations of the cause of death 
in these cases, which are often among the most medically 
complex; providing training to law enforcement and prosecutors 
to hold offenders accountable; and creating data-sharing 
systems that allow agency to cross share information so that 
children can be saved and research can inform our practice; and 
of course, educating the public so the communities can protect 
their own children.
    Because of the complexity of these issues, a coordinated 
and thoughtful approach is critical and can only be achieved 
through the work of a commission to end child abuse and neglect 
fatalities. Our efforts on behalf of these children must go 
beyond finger pointing, the blaming and firing of individual 
caseworkers, and scattered prevention and intervention 
strategies if we are to prevent future deaths. Our best hope of 
reaching a comprehensive strategy is the establishment of a 
commission to end child abuse and neglect fatalities, empowered 
to investigate, make thoughtful recommendations, and lift up 
promising practices. The lives of more than 1,500 children each 
year absolutely depend upon it.
    Thank you.
    Mr. PAULSEN. Thank you very much, Ms. Huizar.
    [The prepared statement of Ms. Huizar follows:]

    [GRAPHIC(S) NOT AVAILABLE TIFF FORMAT]

    Mr. PAULSEN. Mr. Doggett, I understand you would like to 
introduce our next witness, Ms. McClure, who I understand is 
from your home State of Texas.
    Mr. DOGGETT. She is, indeed, Mr. Chairman.
    Thank you. I am pleased to formally introduce Madeline 
McClure, who is the Director of the Texas Association for the 
Protection of Children. She serves as the appointee of 
Lieutenant Governor David Dewhurst and Texas House Speaker Joe 
Straus on the Texas Blue Ribbon Task Force on Child Abuse, 
Prevention, and Child Welfare, and she is the chair of the 
Child Protection Roundtable, which she founded.
    She has a career of about a decade making money 
successfully on Wall Street before she turned to making lives 
better for children on Texas streets. She also works as a 
therapist now, has worked as a therapist with the Dallas 
Children's Advocacy Center. I believe she has done much to help 
prevent abuse and neglect in Texas, more than anyone I know, 
and is a tireless advocate to have made this special trip from 
Dallas to be here today.
    Thank you, Madeline, for coming to join us.
    Mr. PAULSEN. Thank you, Mr. Doggett.
    Ms. McClure, you may proceed.

STATEMENT OF MADELINE McCLURE, EXECUTIVE DIRECTOR, TEXPROTECTS, 
      THE TEXAS ASSOCIATION FOR THE PROTECTION OF CHILDREN

    Ms. McCLURE. Thank you for that lovely introduction, 
Ranking Member Doggett, and Chair Paulsen, and committee 
members, thank you so much for inviting me to testify today on 
this most critical issue of child maltreatment fatalities. I am 
honored to be here.
    Given that child maltreatment deaths stem primarily from 
child physical abuse and child neglect, I am going to focus my 
comments today on child maltreatment prevention, and given my 
background in economics and social work as you just outlined, I 
think it would be most helpful for the committee if I talk a 
bit more about monetizing the benefits and the costs, if that 
would be all right.
    So, first, let me put into perspective the incidence. We 
need to know what the size of the problem is before we attempt 
solutions. As you may know, the National Data Collection 
Systems and the National Incidence Studies, as well as national 
surveys, showed that 1 to 10 percent of our child population 
are abused annually. That is a big range. But whether it is 
750,000 children or 7.5 million children, one abused child is 
one child too many.
    So just to put this in perspective on the screen, imagine 
an aerial view of the following stadiums filled to capacity. 
Hopefully, most of these are from your hometowns, the Hubert 
Humphrey Metrodome, Dallas Cowboys Stadium, the Cotton Bowl, 
Yankee Stadium, Sanford Stadium, Neyland Stadium, Tiger, 
Century Links Field, and the Rose Bowl.
    There wasn't a stadium from North Dakota that was large 
enough that I could include in this, sorry, Congressman Berg.
    But imagine that instead of adult fans filling those seats, 
picture all of those seats now filled with children, abused 
children, almost 50 percent that are less than 4 years old. So 
hold those nine stadiums, packed to the gills, brimming with 
just children. That is what 753,000 looks like. And that is the 
lowest incidence number, just to contextualize the problem.
    The consequences of child abuse and neglect, I think this 
committee has heard several times. But just because you 
mentioned Devin and his parents, Chairman Paulsen, I want to 
remind us that children that are abused and neglected have 
impaired brain development, 85 percent more likely to have that 
and, in stepwise fashion, very often have cognitive 
difficulties, impaired learning disorders and then self-
anesthetizing abusing substances which leads to doing poorly in 
school and also, teen pregnancy and school dropout, often 
leading to juvenile delinquency.
    We talk about the associations, but there is a lot of cause 
and effect here. Most importantly, children that are abused are 
six times more likely to abuse their own children. I can only 
imagine what Devin's parents had gone through in their earlier 
lives.
    But child abuse also exacts a very high financial price. As 
you can see on this next slide, the Center for Disease 
Control's recent study monetizing the outcomes of the 
consequences of child abuse and neglect found that for every 
child abused in their lifetime it will cost $210,000 per 
victim. That is for those who survive abuse. For those who die, 
for every child abuse fatality, we as taxpayers spend $1.3 
million per victim. So, in 2012 inflation-adjusted dollars, 
that is $124 billion that we are throwing out the window just 
on the consequences of child abuse.
    But the monetary calculations cannot begin to place a value 
on the incalculable cost of lives lost, unseen scars of 
potentials quenched, spirits extinguished, and souls murdered.
    These human and financial costs are unacceptable and 
unsustainable, and they do represent an enormous financial 
burden on our taxpayers.
    The good news is that child abuse is largely preventable. 
We have found net cost savings of child abuse prevention 
programs that are of high quality that return on average $3.50 
for every dollar invested, up to $14.50 for every dollar 
invested. Here is an example of a program that is entitled The 
Positive Parenting Program, and this particular program 
actually is cost neutral within a year. But it returns about $6 
for every $1 invested, as you can see in terms of the costs of 
reducing out-of-home placements and also CPS cost, and other 
costs.
    So for a relatively modest investment up front, we will not 
only break the intergenerational cycle of violence, we can 
reduce an enormous economic tax burden on taxpayers immediately 
and the long term.
    And where we are today in preventing child abuse is akin to 
where Congress was 70 years ago in exploring the use of 
antibiotics to kill infections. So when you look back, or your 
children, or your grandchildren look back on this 10, 20, 50, 
70 years from now, this is going to be that inflection point 
where we really go through this process of putting enough money 
up front to change that whole trajectory, not only for at-risk 
kids and their families, but our great country at large.
    This national commission is a right first step, and I 
really am excited about this commission helping all of the 
States have an accessible blueprint for implementing a 
meaningful child abuse prevention strategy. I thank you for 
your time.
    Mr. PAULSEN. Thank you, Ms. McClure.
    [The prepared statement of Ms. McClure follows:]

    [GRAPHIC(S) NOT AVAILABLE TIFF FORMAT]

    Mr. PAULSEN. Mr. Sanders, you may proceed.

STATEMENT OF DAVID SANDERS, PH.D., EXECUTIVE VICE PRESIDENT OF 
           SYSTEMS IMPROVEMENT, CASEY FAMILY PROGRAMS

    Mr. SANDERS. Good afternoon, Chairman Paulsen, Ranking 
Member Doggett, and Members of the Subcommittee. I am David 
Sanders, executive vice president of Systems Improvement at 
Casey Family Programs, a national foundation committed to 
improving the lives of vulnerable children and families in 
America by building Communities of Hope.
    We thank the committee and, in particular, Chairman Camp, 
Subcommittee Chairman Paulsen, and Subcommittee Ranking Member 
Doggett, for their leadership and commitment to reducing child 
fatalities due to abuse and neglect.
    The discussion draft that has been shared would establish a 
commission to develop a national strategy and recommendations 
on this issue. We commend the vision and overall believe that 
such a commission would provide an incredible opportunity to 
better understand how we can prevent child fatalities.
    We offer two comments for your consideration. First, we 
agree it is important the 12 commission members represent a 
number of key expertise areas outlined in the draft. While the 
discussion draft states that each member should possess at 
least one area of expertise, it is important that the 
commission represent a broad range of issues. As currently 
drafted, it appears possible that all of the commission members 
could come from a single area of expertise.
    Second, the discussion draft limits the purview of the 
commission to programs funded under Titles IV and XX of the 
Social Security Act. There are a broad array of programs that 
provide upfront prevention and intervention services, such as 
Medicaid, maternal and child health programs, and substance 
abuse funding. We, therefore, urge the inclusion of a broader 
spectrum of programs.
    In an effort to influence and mobilize national efforts to 
prevent child maltreatment-related fatalities, Casey Family 
Programs launched a series of forums in the fall of 2011. The 
Administration on Children, Youth and Families, the Centers for 
Disease Control joined Casey Family Programs in hosting these 
events that were attended by experts, policymakers, advocates, 
researchers, practitioners, and child welfare leaders, as well 
as public health leaders. These forums provided us a tremendous 
opportunity to explore the issue of child fatalities from 
different perspectives.
    Findings explored in the Safety Forums that will guide our 
future work and recommendation center around four areas: Number 
one, risk factors for severe maltreatment and fatalities. 
Research in California linking birth records and CPS records 
has found that a report for child maltreatment before the age 
of 5, whether substantiated or not, is a risk factor for a 
later fatality from intentional or unintentional injuries. 
Other researchers found the rates of abusive head trauma 
identified among children under 5 years of age increased 
significantly at several major pediatric hospitals during the 
2007 and 2009 period and were associated with increased 
economic hardship at the community level.
    Number two, child maltreatment is a public health issue. A 
significant proportion of child maltreatment-related deaths 
occur in families who have no history of involvement in the 
child welfare system. Therefore, it would be prudent for us to 
look at the issue of child deaths, not just through the lens of 
child welfare but from a broader public health perspective.
    Number three, informing child protection policies and 
practices for reducing child maltreatment-related fatalities. 
There are several areas we need to consider to improve child 
protection policies and practices. The public's perception of 
child welfare in this country is generally painted by media 
reports of isolated cases of tragedy. The gap between public 
perception and the realities of child welfare administration 
drives public policy in ways that are not always the best for 
keeping children safe.
    And finally, number four, measurement and classification of 
child fatalities. Experts agree that improving the measurement 
and classification of child fatalities is critical to 
understanding and preventing child maltreatment and fatalities. 
Building effective cross-sector multi-agency collaborations is 
essential for obtaining accurate data on the incidence of 
preventable child deaths and serious injuries, and implementing 
successful prevention strategies. Multidisciplinary local and 
State child death reviews teams play a critical role in 
identifying patterns in child death and serious injuries, 
identifying common risk factors, and developing and 
implementing preventive efforts.
    The work of Casey Family Programs' Safety Forums has led us 
to believe that we can succeed in this. Successful strategies 
are comprehensive. Strategies are not limited to one sector or 
agency. Successful strategies are focused. High quality data, 
as well as other kinds of research evidence, are essential to 
inform strategies and assess results, and finally, we currently 
have some important knowledge and experience in regards to 
data, but there are glaring gaps; gaps that we can close.
    Casey Family Programs has used its national platform and 
its resources to work with State child welfare administrators 
and other key voices to elevate this issue. We stand ready to 
work with this commission or any other group or organization 
focused on child fatality.
    Thank you and I am happy to address any questions you might 
have.
    Mr. PAULSEN. Thank you very much, Mr. Sanders.
    [The prepared statement of Mr. Sanders follows:]

    [GRAPHIC(S) NOT AVAILABLE TIFF FORMAT]

    Mr. PAULSEN. Mr. Frenzel, in your testimony, you mentioned 
that you feel a number of commissions have been unable to 
achieve their objectives. What do you think contributes to that 
failure? Is it that the missions are too broad or the 
recommendations are too difficult to implement, or something 
else?
    Mr. FRENZEL. Well, I think those commissions, Mr. Chairman, 
and members, that we all know about, are the very high-profile, 
very difficult ones, such as the Simpson-Bowles Commission, 
usually dealing with economics or budget affairs. They only go 
to the commissions after the problems have become intractable 
and hard for the Congress and the President to deal with 
together.
    It is very hard to move a report of one of those 
commissions, especially when the President designates the 
commission and the Congress is not interested in following it 
up. I cite the Bush 43's Commission on Social Security and one 
on tax reform. In that case, in the latter case, the part of 
Congress that didn't want to deal with it was President Bush's 
own party. And so it is just a long shot, I think. The problems 
are too tough.
    This would be quite different. I think this would be 
something on which everyone can get together, and the reason I 
suggest that you might not want a Presidential commission, is 
that I am afraid you might not get the right people or the 
right spread of people. And therefore, I suggest a 
congressionally appointed panel. But the failure of the 
Presidential commissions is that the subjects were too tough to 
begin with, and they weren't going to be solved at that time.
    Mr. PAULSEN. Do you have any other thoughts about what we 
might do to make sure that the recommendations of the 
commission remain within budgetary and political reason and 
don't become too expensive or too controversial for Congress to 
actually approve in the end?
    Mr. FRENZEL. The reason I suggested you get a former Member 
of Congress to chair that commission is exactly that. I had 
some experience on the Pew Commission for Children in Foster 
Care where we had a lot of wonderful advocates for children who 
knew lots about the subject, but my cochairman and I were able 
to bring them back to reality, to a position where most of 
their recommendations could be passed.
    You can have the best report in the world. If you can't 
pass it, the whole thing sinks. And you can't hold these 
people's enthusiasm back, but you can give them, I hope, 
leadership that won't let the enthusiasm run away with them.
    Mr. PAULSEN. Ms. McClure, you are currently serving on a 
commission in Texas that is focused on preventing child abuse, 
and this commission has had to develop recommendations for 
State policymakers to consider and approve. What mechanisms 
does your commission have in place to actually see that the 
recommendations are adopted?
    Ms. McCLURE. A reality check. I think, as the Congressman 
just mentioned, we have to be realistic. We can put out a 
report looking at the utopia or the ultimate solutions maybe 
for 20, 30 years, but we certainly have 2-, 4-, and 6-year 
goals that are realistic, given the resources, or scarce 
resources, I should say, and the political realities of our 
State. So I agree that what the Congressman is mentioning, you 
have to have the enthusiasts at the table, the experts, but we 
need some political and economic realists there as well.
    Mr. PAULSEN. Thank you.
    Mr. Doggett is recognized for 5 minutes.
    Mr. DOGGETT. Thank you very much, Mr. Chairman.
    And I think first I want to say to Ms. Huizar, I believe 
that it was your Coalition to End Deaths that really provided 
the impetus for the original legislation that I introduced and 
was introduced in the Senate last year, and I appreciate that 
and I think you helped to craft a good measure.
    The changes that have been made in the bill since then, are 
to address some of the concerns that have been raised here 
today and also recognize the jurisdiction of the various 
committees and of this subcommittee. One of those changes 
really is designed to address precisely what Congressman 
Frenzel raised; we are not interested in just another report to 
sit on the shelf. We want some people who are actively 
involved, and so, since last year, changing it to have half of 
those appointees come from within the Congress in hoping that 
we will have people who work with the leadership here in the 
Congress, and the House, and the Senate to actually see 
something happen.
    With reference to your comments, and particularly Mr. 
Sander's comments about Title IV and Title XX, that is the 
jurisdictional basis for this Committee. It is not my intention 
as an author to tie the hands of this commission. The 
commission may well consider matters that weren't even 
mentioned in the bill last year in trying to decide how to 
fulfill its mission. But as it reports back, the focus of this 
Subcommittee is Title IV and Title XX of the Social Security 
Act. It may deal with, as it looks at these issues, some advice 
to the States that it found some practice in Minnesota, or New 
York, or Michigan that is particularly valuable for a State or 
a city to use.
    So I just wanted to make clear, while very sympathetic to 
the comments that you made, Mr. Sanders, that it was not my 
intention as we redrafted the bill to tie the hands of the 
commission or to deny it an opportunity to go wherever the 
evidence suggests. Even though its goal is to stick with a 
Title IV and Title XX, certainly our goal is to focus on 
prevention, and not just responses after this happens.
    And I think Ms. McClure has made it especially clear, the 
dollar savings we can have, which is also something all of us 
are very interested in; how can we see the most efficient use 
of our Federal and other resources to address this problem?
    Let me ask you, rather than use all of my time commenting 
on the excellent testimony that each of you gave, Ms. McClure, 
just to pick up with what the chairman was asking. From your 
work there on the Texas Blue Ribbon Task Force, which I 
understand is still a work in progress, and thinking about 
those experiences, if we have a State commission, and I am sure 
Texas is not the only State with a State commission, and there 
are a number of city commissions, what advantages do you 
believe we would gain from having a national commission to 
continue the review?
    Ms. McCLURE. Well, first off, Congressman Doggett, let me 
just point out that one of the reasons we do have a commission 
in Texas is, alluding to your earlier comments, is that our 
child fatality deaths grew by 124 percent over a 15-year period 
compared to our population growth of 19 percent. Over that same 
time frame, we went from 103 children dying from child abuse to 
281 child deaths over a period of 15 years.
    So that was the impetus for the commission, but as we 
started getting deeper, we realized, what we really do need to 
do is address the root problem. But when we looked at national 
research, all of the national Web sites, and tried to study who 
has got a good blueprint or turnkey kit, if you will, on a 
child abuse prevention strategy, there really wasn't anything. 
So we ferreted out different States' prevention plans and 
strategies, and we found about seven or eight States that had 
something in place, but what we couldn't find was outcomes from 
the implementation, nor evaluation of performance outcomes from 
these plans.
    So what I see this commission doing is really putting the 
best of the best together and formulating something that is a 
flexible model that States can implement and access, of course, 
if they desire. It can be a kind of clearinghouse for a place 
to go that will be adaptable to each State's unique needs, and 
population, and culture. So I really wish we had had something 
like this in place to go to to make our 4 years of work a bit 
easier. It will be a great resource.
    Mr. DOGGETT. My thanks to each of you. I think your 
testimony is really helpful and your ongoing participation. We 
still do have the possibility of action this year, and 
hopefully, with your input, not only to us, but to our 
colleagues in the Senate, we can get some movement and some 
action and get this underway none too soon.
    Thank you, Mr. Chairman.
    Ms. McCLURE. Thank you.
    Mr. PAULSEN. Thank you, Mr. Berg is recognized for 5 
minutes.
    Mr. BERG. Thank you, Mr. Chairman.
    I want to thank you, Chairman Paulsen, for holding this 
hearing, and certainly Mr. Camp and Mr. Doggett for being 
cosponsors. I think one good way to determine whether or not 
something coming out of this commission will be heard is when 
you have the ranking member as the sponsor of the legislation. 
So, hopefully they will be able to work through those things.
    It is really unfortunate that child abuse is a challenge 
throughout our country. We just had a situation on one of our 
reservations in North Dakota that has really brought to light 
this very serious issue. It is unfortunate because it is out 
there all the time, and then you have one situation that comes 
up, and all of a sudden, it is on everyone's mind in the State 
and all of the elected officials, and then it kind of goes 
away. So I think part of why this is important to me is it is 
obviously important to our State right now. It has been an 
alarm.
    So I am wondering if better communications from the 
different organizations involved could help move this along? 
And Ms. Huizar, I would like you to respond to whether or not 
there is a way to create a better communication process within 
the organizations.
    Ms. HUIZAR. Sure. Thank you very much, Congressman, for 
asking that question. I think there are several ways to 
approach this. One, is in terms of collecting information 
itself, one of the things that we should probably recognize is 
that NCANDS right now, the information that States turn over to 
the Federal Government in regards to these records, doesn't 
even really require turning anything over in regard to near 
fatalities. There is no field for that. And so there is a lot 
of information that just gets missed in that way.
    I think, at the local level, though, you see even 
misunderstandings about CAPTA confidentiality requirements and 
what information can be shared.
    There was some recent clarification that HHS put out to 
indicate that in child abuse fatalities, that information 
involving the child who had died, that that information could 
be shared as a part of policymaking, and the investigation to 
determine what could be done to prevent these deaths. However, 
it did not clarify whether, in fact, information on other cases 
involving that child, prior cases of abuse, or even cases 
involving other siblings in the family could be shared. And you 
can imagine that because, as Mr. Sanders pointed out, in many 
of these cases, there had been prior reports and that is a 
factor in future death, that would be a very important thing to 
know. So I think that there are some significant issues yet to 
be clarified that could be very helpful in that way.
    And finally, I would say that data systems can make that 
work easier. In our own Children's Advocacy Centers and 
multidisciplinary teams, the reason there such open information 
sharing is because we have systems in place that make that 
possible, including the use of technology in doing that. And in 
the absence of that, it is tremendously difficult for all of 
the professionals who need to share that information to do so. 
So I think there are some very practical steps we can take 
along this line that would make that job easier.
    Mr. BERG. Well, maybe you can expand on that little bit. 
You have the data sharing between groups, getting on the same 
kind of platform, so same definitions maybe for abuse, or are 
some best practices that you can say, you know, here is how 
these groups can work better.
    Ms. HUIZAR. Absolutely. Well, I would like to think that 
certainly that Children's Advocacy Centers are an excellent 
example of that multidisciplinary teamwork really coming 
together and sharing that sort of information. And what they 
have been able to demonstrate over 25 years in terms of their 
effectiveness in working in these cases, I think could be 
expanded to work in this arena as well. I think child death 
review teams are another excellent example, but their work has 
been somewhat limited. I mean, as you know, the resources that 
are actually going toward the work of those teams has have been 
very small. And so while there have been some good pilot 
projects in terms of cross sharing of information, there is a 
lot of work yet to be done, some of which will really require 
some additional resources.
    And then you also touched on a critical matter which is 
this lack of standardized definitions. I mean, this is really 
core in lots of areas where there are problems in child abuse 
reporting overall, in counting fatalities, and many other 
things. The lack of standardized definition makes it very 
difficult to get our arms around this problem, and I think if 
we can address that, it is a good first step to addressing some 
of the other matters.
    Mr. BERG. Thank you, and I yield back.
    Mr. PAULSEN. Thank you. The gentleman's time is expired.
    Mr. Reed is recognized 5 minutes.
    Mr. REED. Thank you, Mr. Chairman.
    And thank you, Mr. Doggett, for this important matter. I 
look forward to supporting it and working with you to get this 
to the finish line.
    And I appreciate the witnesses' testimony today. And I 
wanted to continue on the issue of the standardization of 
definitions. This is one thing that, as I serve on this 
subcommittee, I am very interested in trying to pursue, making 
uniform, to make consistent the different terminology and 
language and data points that are being provided to the Federal 
Government, because I see a lot of just basic miscommunication 
and inefficiency associated with that. And so when we looked in 
particular at the definition of, for example, maltreatment, it 
varies State by State. And we have had a hearing on it back in 
July of 2011, and I am interested in hearing from the panel. 
Maybe Mr. Sanders to start with, why do the States do that? And 
what are the arguments for and against having those different 
definitional standards?
    Mr. SANDERS. Thank you for the question.
    I think there are a couple of perspectives on that. One is 
the Federal Government actually gives flexibility to States in 
the definition beyond the focus on physical abuse, sexual abuse 
and neglect. And States have taken that opportunity. And one 
example is educational, young children missing school. In some 
States, that is defined as maltreatment; in other States, it is 
not. And my guess is that it emerges as a concern from the 
local community or from the State as an issue that they want to 
address and feel that should be addressed under their child 
welfare agencies. So that would be an example of maltreatment 
being defined differently from State to State.
    I think that the other piece of that is it is important for 
this issue to come to some consensus to develop consistency in 
reporting, because I think that to address this issue, there is 
going to have to be accurate measurement of how many children 
are dying due to abuse or neglect. So I think it is quite 
possible to come to that and I think that the commission really 
offers an opportunity for that to happen.
    Mr. REED. Well, I appreciate that and I join in that 
sentiment. So if I am understanding your answer correctly, you 
think primarily the difference is the basic difference between 
communities coast to coast, north to south and the different 
community needs that they are identifying in the states where 
they have different definitions.
    Are there any practical effects? Is there any funding that 
is tied to these different numbers? I am trying to see if there 
is something else that is driving this distinction, other than 
just the uniqueness of the areas of the country upon which the 
terms are being defined differently? Does anyone have anything 
to offer on that side? Is there any policy reason why they 
would be making those distinctions?
    Ms. McClure.
    Ms. McCLURE. I would just say that almost every legislative 
session in Texas, there are proposals to change the definition 
of child abuse and neglect in some way. So those definitions 
are, I think they are more culturally defined. I don't think 
that there is anything financial involved in making definition 
changes.
    But back to your point on how to standardize measures, I 
think one of the ways of looking at child maltreatment 
fatalities is not so unlike looking at homicides versus 
manslaughter. So, in other words, an intentional death of a 
father, beating a child and putting him in the oven, versus the 
mom who is depressed, asleep, and her child runs out and gets 
hit by a car, are really different types of child deaths that 
we really need to consider.
    So I would say that there are quite a few deaths due to 
neglect, but mostly they are physical abuse. And I would look 
at those very differently. I don't think it would cost the 
States much to stratify and come up with a consensus on a 
definition that would be acceptable to everyone, as long as 
they knew that the bottom line is that we are helping, trying 
to provide some tools to alleviate the problem.
    Mr. REED. That is a great point, and that leads to one last 
quick question. So do you see any barriers that we would have 
at the Federal level coming up with a common definition that we 
would have to overcome in order to implement it? Are there 
parameters that we should be focusing on in regards to defining 
that term, maltreatment? Anyone? Do you see any barriers?
    Ms. HUIZAR. Well, one thing that I would say is that your 
primary barrier may be people's just innate sense of attachment 
to what they are already doing and reluctance to change. 
Exactly, reluctance to make change. I think it is important to 
know that the CDC did a tremendous amount of work on setting up 
standardized definitions in the area of child maltreatment, and 
I think encouraging their usage might be a first good place to 
start in that regard because they certainly did very fine work. 
And it, you know, reflected a consensus of experts and others. 
So----
    Mr. REED. Good. All right.
    Well, thank you very much.
    With that, my time is expired. I yield back, Mr. Chairman.
    Mr. PAULSEN. Thank you.
    With that, I just want to thank all of the panelists and 
witnesses for taking the time to be here.
    I think, hopefully, we will be hearing from Chairman Camp 
and Mr. Doggett as they fine-tune some final changes that are 
consistent with today's testimony.
    And with that, we are adjourned.
    [Whereupon, at 3:02 p.m., the subcommittee was adjourned.]
    [Submissions for the Record follow:]

    [GRAPHIC(S) NOT AVAILABLE TIFF FORMAT]

                                 <all>

</pre></body></html>
